                               INDEPENDENT EVALUATION OF

                        SBA’S INFORMATION SECURITY PROGRAM

                                     REPORT NUMBER 06-01

                                          OCTOBER 7, 2005




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                   U.S. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
                           WASHINGTON, D.C. 20416

                                                           ADVISORY MEMORANDUM
                                                                  REPORT
                                                           Issue Date: October 7, 2005
                                                           Number: 06-01

To:           Hector V. Barreto
              Administrator

              Stephen D. Galvan
              Deputy Administrator
              Chief Operating Officer
              Chief Information Officer

              Charles McClam
              Acting Chief Information Officer

              Delorice P. Ford
              Chief Privacy Officer

              /S/ Original Signed
From:         Robert G. Seabrooks
              Assistant Inspector General for Audit

Subject:      Independent Evaluation of SBA’s Information Security Program

        The Federal Information Security Management Act (FISMA) requires the Office
of Inspector General (OIG) to perform an independent evaluation of the Small Business
Administration's (SBA) information security program. This report presents the results of
that evaluation in accordance with specific FISMA reporting instructions issued by the
Office of Management and Budget (OMB).

                      OBJECTIVES, SCOPE AND METHODOLOGY

        The objective of our review was to evaluate SBA’s information security program
in accordance with FISMA reporting requirements specified in U.S. Code Title 44,
Chapter 35, Section 3545 as well as OMB Memorandum M-05-15. We performed an
independent evaluation of SBA’s information security program to reach conclusions
about the adequacy of FISMA reporting areas. In making our evaluation, we considered
prior audits related to SBA’s information systems computer security program issued by
our office in fiscal year 2005 as well as analyzing pertinent information in SBA’s
Information Technology Security and Privacy areas.
       Our assessment covered the 20 high-priority systems identified by SBA and its
characterization of compliance with FISMA requirements from September 16, 2004 to
August 15, 2005. OMB Memorandum M-05-15 indicates that we were encouraged to
provide any additional narrative in an appendix to the (FISMA) report to the extent those
comments provide meaningful insight into the status of the agency’s security or privacy
program.

        We interviewed SBA officials and reviewed documentation on SBA’s
information security program. Our evaluation was performed at SBA’s headquarters
office in Washington, D.C. from April 2005 through October 2005.

                               OVERALL EVALUATION

        Generally for FY 2005, the SBA’s computer security program continues to show
mixed results. SBA continued to have 19 of 20 major systems (95 percent) certified and
accredited as of the end of our fieldwork on August 15, 2005. However, SBA has not
been able to timely or sufficiently address 161 unimplemented system risk assessment
vulnerabilities and 50 unresolved OIG audit findings for which recommendations had
exceeded their estimated target date for completion to correct the issues identified. A
number of these unimplemented audit recommendations and risk assessment weaknesses
are significant to SBA’s information technology environment.

        For FY 2005, OMB requested an in depth review of SBA’s Certification and
Accreditation Process. We have identified the following areas which came to our
attention during the FISMA review process.

Finding 1:     SBA’s Certification and Accreditation Program Does not Meet all
               Necessary Aspects of NIST Requirements

        We found most processes with respect to SBA’s certification and accreditation (C
&A) program were implemented appropriately. However, we found three areas that did
not fully meet existing National Institute Standards and Technology (NIST) guidance for
performing C&A activities. Given the scope of the three exceptions in relation to the
overall program, we rated the quality of SBA’s C&A process as “Satisfactory” in the
annual FISMA evaluation.

a.     Continuous Monitoring of SBA systems is not Incorporated into SBA’s
       Certification and Accreditation Requirements

        SBA had not fully incorporated continuous monitoring of its information systems
into any of the five Certifications and Accreditations (C&A) issued after September
2004. As a result, SBA is not fully ensuring that its systems are fully protected during
certification reviews.

       According to Guidelines for Certification and Accreditation (NIST 800-37)
Section 3.4 Task 9, the objective of the security control monitoring task is to: (i) select an


                                              2
appropriate set of security controls in the information system to be monitored; and (ii)
assess the designated controls using methods and procedures selected by the information
system owner. The continuous monitoring of security controls helps to identify potential
security-related problems in the information system that are not identified during the
security impact analysis conducted as part of the configuration management and control
process. The authorizing official and information system owner should agree on the
subset of security controls and the frequency of monitoring activity.

       We reviewed C&A packages for five systems finalized after September 2004.
We could not identify an appropriate set of security controls in the information system to
be monitored for any of the five C&A packages finalized since September 2004.
Additionally, we noted in OIG Audit 5-12 issued on February 22, 2005 that:

       Logging and monitoring controls at the network and application level were weak.
       SBA had no policies and procedures identifying which activities should be logged
       and how to determine these activities, and had not specified who should review
       logs and how often. SBA briefly discussed logging in their Procedural Notice
       9000-1407 and SOP 90-47-1; however, not at a level sufficient to ensure that
       individuals know what to log, who should review the logs, what the logs should
       be reviewed for, and how often they should be reviewed.

       We previously recommended in the Audit of SBA’s Information Systems
       Controls for FY 2004, Audit Report 5-12, that the Chief Information Officer for
       all SBA internal and contractor supported general support systems and major
       applications, e.g. Egan Mainframe; SBA and Corio UNIX; Network and
       Windows 2000; Loan Accounting System, Sybase; JAAMS Oracle, and related
       application functions:

       •   Develop and document policies and procedures clearly outlining what
           activities should be logged, who should be responsible for reviewing logs,
           what the logs should be reviewed for, how often logs should be reviewed, and
           how long logs should be retained.
       •   Assign responsibility within OCIO Security for the review of application and
           general support system security logs.
       •   Retain audit logs for a sufficient period of time (at least 90 days).

b.     SBA had not Implemented a Comprehensive Configuration Management
       Capability

        SBA has not fully incorporated a comprehensive configuration management
capability into four of five C&A’s issued since September 2004. As a result, SBA is not
ensuring that changes to its systems are documented and controlled. Additionally, the
assessment of changes to the security of a system are an essential aspect of maintaining
valid accreditations of SBA systems.

       According to Guidelines for Certification and Accreditation (NIST 800-37)
Section 3.4 Task 8, the objective of the configuration management and control task is to:


                                            3
(i) document the proposed or actual changes to the information system; and (ii) determine
the impact of proposed or actual changes on the security of the system.

        We requested configuration management plans for all five systems with C&A’s
finalized after September 2004. SBA provided a copy of one configuration management
plan for the Disaster Credit Management System (DCMS) which had been finalized after
September 2004. However, we identified that this configuration management plan was
for identifying changes to DCMS during development and not for the production
environment. Therefore, that configuration management plan was not applicable to
maintaining the DCMS system.

       The SBA Systems Development Methodology requires that configuration
management plans be created for all new Agency applications and that these plans
include configurations down to the software or product level.

        At the time of our review, OIG identified that a configuration management plan
for the contractor operated systems Section 8(a) Small Disadvantaged Business
Management Information System and Contract Loan Servicing were not obtained by
SBA. In addition, SBA could not provide configuration management plans for its
internal LAN/WAN system. The C&A documentation for those systems refer to the SBA
Systems Development Methodology (SDM) as the standard for configuration
management.

       We concluded that each SBA system should contain a system configuration
management plan which would document the change control process for that particular
system. SBA should also have its own configuration management plans which document
the change control process when SBA requests changes to contractor provided systems.
These plans should identify who at SBA would request a change, how that change would
be programmed, tested, and moved into production in a controlled manner by SBA’s
contractors. These configuration management plans should be validated and tested in the
C&A process before a system is accredited.

c.     SBA’s Local Area Network / Wide Area Network was Improperly Accredited

        SBA improperly fully accredited its Local Area Network / Wide Area Network
(LAN/WAN) general support system during its most recent accreditation on May 19,
2005. This occurred because the LAN/WAN was categorized as “high” during its
Federal Information Processing (FIPS) 199 system categorization review, and according
to accreditation documents signed as of May 19, 2005 the LAN/WAN lacked a disaster
recovery plan and a back-up recovery facility. As a result, SBA should not have fully
accredited its LAN/WAN, but issued an “interim authority to operate” accreditation while
SBA obtained the necessary back-up recovery plan and facility.

       According to NIST Guidelines for Certification and Accreditation of Federal
Information Systems, if, after assessing the results of the security certification, the
authorizing official deems that the risk to the agency operations, agency assets, or



                                             4
individuals is unacceptable, but there is an overarching mission necessity to place the
information system into operation or continue its operation, an interim authorization to
operate may be issued. An interim authorization to operate is rendered when the
identified security vulnerabilities in the information system resulting from deficiencies in
the planned or implemented security controls are significant but can be addressed in a
timely manner.

       Ancillary documentation provided by SBA identified that a backup recovery plan
and facility had actually been acquired and tested before the certification and
accreditation was signed by SBA. However, this information was not in the finalized
accreditation package and therefore the accreditation documentation was not current at
the time of signature. SBA should have either issued an interim authority to operate for
the LAN/WAN or ensured that significant risks to the system identified in the
LAN/WAN POA&M were accurately reflected before signature.

Recommendations: We recommend that the Chief Information Officer:

1.A    Fully incorporate “Continuous Monitoring” of major applications and general
       support systems as a task within SBA’s Certification and Accreditation program
       in accordance with NIST Guidelines for Certification and Accreditation (NIST
       800-37).

1.B    Require that configuration management plans be incorporated within Certification
       and Accreditation packages for all SBA systems, including those systems
       operated by contractors.

Finding 2: SBA’s Privacy Impact Assessment Program did not Meet all Necessary
      Aspects of OMB Requirements

        A number of newly created Privacy Impact Assessments (PIA) for SBA’s major
systems did not contain information to address all necessary aspects of a PIA. This
occurred because SBA had not analyzed the systems or evidence accompanying the
systems beyond completion of the questionnaire. For example, there was no analysis or
assessment of whether the system complied with privacy requirements based on the
questionnaire results or a description of any new or planned changes to the system based
on the results of the PIAs. Additionally, there were no measures to mitigate risks
identified for each alternative and the rationale for making changes to the system or
implementing controls over the utilization of the data.

        OMB Memorandum 03-22, OMB Guidance for Implementing the Privacy
Provisions of the E-Government Act of 2002, requires that each agency conduct PIAs for
electronic information systems and collections and, in general, make them publicly
available. The PIA must identify what choices the agency made regarding an IT system
or collection of information as a result of performing the PIA. For major information
systems, PIAs conducted for these systems should reflect a more extensive analyses of:
(1) the consequences of collection and flow of information, (2) the alternatives to



                                             5
collection and handling as designed, (3) the appropriate measures to mitigate risks
identified for each alternative, and (4) the rationale for the final design choice or business
process.

       We identified that the answers to the questionnaires which made up SBA PIA’s
were not in sufficient detail commensurate to the size and complexity for SBA’s major
information systems and did not address fully areas of previously identified
vulnerabilities. The following two examples are identified from our review:

a.     The Joint Accounting and Administrative System (JAAMS): OIG’s audit
       report “SBA’s Implementation of the Joint Accounting and Administrative
       System (3-32) issued on June 30, 2003; [FOIA Ex. 2].

       a. The following questions were answered as not applicable in the PIA
          questionnaire – Section E. Maintenance of Administrative Controls:

               [FOIA Ex. 2]

               We concluded that each of these questions should have been completed in
               the affirmative. Additionally, an in depth analysis should have been
               performed identifying what controls either systematic or manual should
               have been implemented to prevent or detect unauthorized monitoring of
               employee information within the JAAMS system.

b.     Contract Loan Servicing: During OIG audit “SBA’s Oversight of the Fiscal
       Transfer Agent For The 7(A) Loan Program (3-08) issued on January 30, 2003;
       we had reviewed the Fiscal Transfer Agent’s (FTA) internal procedure manual for
       setting up loans within the FTA’s information system. The internal procedure
       manual identified that borrower SSN and co-owner name and address are to be
       entered into the FTA system.

       a. The following questions were answered as “No” in the PIA questionnaire –
          Section B. System Application/General Information:

                i. Does this system contain any information about individuals? – No.
                      1. Is this information identifiable to the individual? – No.

               We concluded that both of these questions should have been completed in
               the affirmative. Additionally, a further review of Contract Loan Servicing
               was warranted before the PIA was finalized.

       Overall, the Senior Agency Official for Privacy has taken actions to increase
awareness of privacy issues and improve the quality of PIAs. Among the actions taken or
planned for the near future are: Implement a new privacy regulation, improve PIA
guidance, conduct internal monitoring and auditing, conduct privacy training and develop
open lines of communication with system owners and the Inspector General.



                                              6
Recommendations:

We recommend that the Senior Agency Official for Privacy:

2.A    Ensure that PIAs contain an analysis of the questionnaire answers and an overall
       assessment of the system compliance to the Privacy Act.

2.B    Require that PIAs for major systems reflect a more extensive analysis of the
       consequences of collection and flow of information, the alternatives to collection
       and handling as designed, the appropriate measures to mitigate risks identified for
       each alternative and the rationale for the final design choice or business process.

                                          ***
       The OIG FISMA report is attached in the format prescribed and utilizing a
template file which was provided by OMB.

        The findings included in this report are the conclusions of the Auditing Division.
The findings and recommendations are subject to review and implementation of
corrective action by your office following the existing Agency procedures for audit
follow-up and resolution.

        Please provide us your management decision for each recommendation within 30
days. Your management decisions should be recorded on the attached SBA Forms 1824,
Recommendation Action Sheet,” and show either your proposed corrective action or
target date for completion, or explanation of your disagreement with our
recommendations.

       Should you or your staff have any questions, please contact Jeffrey R. Brindle,
Director, IT and Financial Management Group at (202) 205-[FOIA Ex. 2].

Attachment




                                             7
Scctlon C ' Insp~clorGeneral OYCS~I~IIL1.2.3.0.3nd 5

  Agency N=mc: U.S. Small Bur!ncrr Admlnlrltatton
             thl w,   .nd a br mm.1 pmm ma*.        ra.rr *mdhr m .pmq ha drllopd hplrm.nt.d mnd k mampng m ngnry uda p l m d -don and m l l e m r r (POAbM) 7 E v d w th.                                       m wch rm
             m t m d rdm m rtdll h p u r m g m q tv h-lnq  hem m rs-    plmd.dInme mop&-    m m u H wpsb or -w,       lndude -man5     m h e mr- povlbd b*m



         . R.ray, to, a m p . n w c & m W y C-54% d r m b m e
         - 6 a n e h m s . Iol m m p k . w m m w 51-70Y d br bme
         . Frequcdy lm m m p l * m-mmt.hl714E4         d brbmm
         -   MOSU~. lor m m p l e . m-mHlly 81-95% d th bme
         . Alm&    ahwp. tor m m * . .ppolbmndy C€-1Cm%   d m bms




                                        w m mn n
                                         amplrnnt
                                                            l p b l r . k I-*
                                                    mnd m m . p    m u
                                                                                      povm
                                                                             tor mar -1s)
                                                                                                (IMdnpah.      n mal a, -*           *m)-op.              . amat    -.     ta
                                                                                                                                                                                       .ppmmrny
                                                                                                                                                                                             &?OOU d m bm.




                                                                                                                                                          - PImat-,
                                                                                                                                                          -
                                                                                                                                                                                am*.   .ppmm.UI     B   I   m d lb bme
                                                                                                                                                                                                                             I!
I                  LL                    OIG h h n p r .re m-med


                                         m m p w plmihun IT r
                                                                     I*   m   POAW p-.


                                                                              ~        ~ to    ~        e       .num(-=-
                                                                                                                a                   mre'*ared'n'
                                                                                                                                                      I
                                                                                                                                                              M y , lor mmplm. n p p o p m . Y 81.85% dthc bme


                                                                                                                                                          .~ m a t * h n y for
                                                                                                                                                                           , m m p i e . sppronmWy ~    6   1 dmm bma
                                         bmdy r n m m n d r-a m m . 1 .       resou-




                                                                                                                                                                                                                             If
                                                                                                                                                      I
    b m m e n k & belw
    Question 2.2.a. Nineteen out of 20 SBA systems had a valid Certification and Accreditation as of end of fieldworlr on August 15,2005.
IQucstion 2.2.b. Scvm of 20 SBA systems had a full scope Sccurity Test & Evaluation (ST&E) performed b m v c a September 16,2004 and August 15.2005.




                                                                                                                                                                                                                             k
    @&on 2.2.c. OIG Audit 5-17 on Contingency of Operations Planning (COOP) identified that all of SBA's System Di-               Recovery Plans (SDRF) were in 'draft' stnbls as of Mach
    2005. Further, SBA did not use its SDW's to actually recover its major systems during recovery 1 s t exercises, but relied upon the expertise of certain personnel who had in depth
    knowledge of SBA systcms to recover its systems during t& cxercisez. OIG recommended 'finalization' of all SBA SDRP's and the utilization of those SDRF's to actually ten
    rccovery of SBA systems. As of the end of RSMA fieldwork SBA had finalized all of its internal SDRPs. SBA also tested 3 SDFPs for m internally o w e d systems after SDRP plan
    finalization. We analyzed four SAS-70 reports on contractor provided systems and gave credit for t h r a contractor provided system whereby Disaster Recovery Capability had been
    verified in SAS-70 audits of SBA's contranor computing environment.

    Question 4.a The SBA P O M M identified 292 of 346 (84.39.h) open risk auessmcnt wlncrabil~tiesand audit recommendations.                                                                                                1
    Question 4.c. The SBA P O M M wntained 106 of 117 (90.60%) open OIG audit ru;ommcnddons.

    Question 4.1 The SBA P O M M idmtified that all 307 weaknesses identified ES opm were p r i o r i t i d The SBA P O M M also identified that 161 of the 307 (52.44%) of weaknesses
    identified as open had u d e d their c o r r d v c action date. SBA needs to ensure that significant sccurity issues arc addressed in a timely manner and r m i v e appropriate resources.                                !
                                                                                                                                                                                                                              1


    C
    OIG bssrumm d r m Crrm-.bon and A m d b m R-
     lmnd.s6. m
    1-  ,ndu~e.ma    01
                        r mu, lola MST S p s o d Publocanon -37.
                          h e FlPS I09 (E-r)l.
                                                                     OMB k !sw&3np IGr lo pond. quort.br. a u e u r n m l d le m p m y s d c = b o n and uctdlmbon -.

                                                    2004) .SmM.ra lm S-my     Cmepmmbon d F r U . 1 Idonnabon and Idormmbm Sy4uns: u, onrmma .nlmp.d M
                                                                                                                                                                          l n r r d n p mehama m a a n p p d q.p a a m mnd
                                                                      'Gu* lor me S.army hmh-bm and * a t d u b o n d F w d In(am.bon Sy4.m" ( U y .X X Y , lor u m h d m m n d m m d b o n rorllmb.led I(tsl w .2MU
                                                                                                                                                                . .r *ol. n . u o m ~ e d M S T -em      mn            lo,   I!
                                                                                                                                                                                                                              9
                                                                                                                                                                                                                              $




     Comments for Question 5: We reviewed five Certification sod Accreditations finalized miter between October 2004 and August 2005. See the commentr below on SBA's C&A                                                    1
     procus.                                                                                                                                                              4
     Comment I : SBA's Certification and Accreditation process did not include a strategy for "Continuous Monitoring' as idcntified in NIST 800-37. Section 2.7 for any of the 5 C&A's
     f i n a l i d &a September 2004.
     Comment 2: SBA's accreditation decision for one system rated as "high' for data sensitivity was at the time improper based upon the fact that amrding to accreditation
     documentation, the system did not have a wrnplcle and tested disaster rccovery capability. Ancillary information identified that the risk had been wrrected, however this was not
     reflected in accreditation documentation signed by SBA
                                                  Saction B: inspnctor Gensral. Question 6.7, B. a n d 3

                                                     Agsncy Nams: SmallBusinnss Administration




                                                                                                                           -
                                                                                                                                             I
                                                                                                                            \
     =          k(h.n.n.p.ncy~Matty~npobf)
                Ys. or No.                                                                                                                 dI
                                                                                                                                             I




            r                                                                                                                                            J
I    6.b.
                Configumtion guides ue nnllabh for lhe produck listed b&w. klenUfy which lottmnis a d d n d in Uw agency wido c#arrHy mnfipuntian pdiq.
                lnd~cmte4Wher w not any agency systems run tha soltwnrs. h addition,a m b lhe exlenl of implemntstionof UIE manily wmipuration policy on
                the system mninp Uw lomvua.




                                                                                                           1-   aysGstun&(~..olbmn
                                                                                                                Bomthnu, won u l ~ ~ o x h v b61-70%
                                                                                                                                              lv     d




L.                                                        y-, NO.
                                                           or MIA                    Y u w No.
                                                                                                            cptmm&tkk.o(h.n
I                                                                          Question 7

Indicate uhttmf or not the following policies and pmmdum am in plam at your a p n q . IfmppmpriPt. or nacesmry,indud. mnmmb in mo area pmvidd Wow.

                  The agency f o h doar-            p o b r and procedure8 for d
                                                                               i -g       and r e w g
      a.          m     ~     ~   l     y       .                                                                                  Yea
                  Yes w No.
                  The agency folavr documenied pdickr and pmadum for exterrul nporthg to Law
      7.b.        mformm~nl   aauthofkk.                                                                                           Ya
                  Yea or No.
               The agency f o h d h d pmedurcu for reportingto the U n b d States Computer
       7s.     Emergency Readiness Team (USCERT). h n p J h w w . u ~ g o v                                           70s
               Yes w No.
Comments: Durhg the year, SBA submitted 9 of 12 monthly worts to FdCIRC on tine. SBA dehyad up to throe months h sutunllfhg Us reports to FecCIRC
                  -
behuwn 10101104 12nl104.



                  Has the agency Muursd secudly bahhg and aw8mnm~of a0 m p b y w c , hduding
                  contrsdorr and those e m p b p s M h rlgnkanl IT seanity responsbWes?



        8
                  -Response Cholces hclude:
                    Ranly, or, appmxinately   of e m p b p s have rumcbnt trahhg
                                             0.50%
                   - Sometbne6, w appmhatety 51-70% of wnpbyees have stdkiml trahhg                        - w,     or appmxhmiely81-852 of mnpbpaa b v r
                   - FmquMtly, or appmxhhty 7140% of empbyees have sumcbnt trahhg                          udfk%nt t m h g

                   - Mostly, w appmxinably 8145% of ampbyeas have sufkient trahhg
                   - Amoot A b y s , or approxinately 9&100% of empbyeer have wmcknt bainhg


                                      SBA provided
                                      records that
                                      3,053 of
                                                                                 SBA har n d hpbmented
                                      3,458 (88.3%)
                                                                                 an adequate tmhhg
                                                                                 program for thoae
    Comments:                         of penonnd                                 empkyws and
                                      took "End-
                                      User Seculily
                                                                                 contndon w#h s i g n h n t
                                                                                 IT ~ c u *~tyrsrponabl[tbs.
                                      Tnhhg m PI
                                      2005.




                   Does the agency explsh p o b regarding pesr-bpcm f h sharhg h IT security
                   Pwsmness bainhg. ethlu trenhg, w m y other agency wide trahhg?                                                   yea
                   Yes w No.
                                                                                                    ATTACHMENT A



                                         REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

Office of Management and Budget..........................................................................1

U.S. Government Accountability Office .................................................................1
